I
LEs

Supreme Court, U.S.
FILED

No.

m mz

iV;

AUG 0 9 2021
OFFICE OF THE CLERK

Supreme fflflurl nf tip Bnitcii States
IN RE SUPERVISED ESTATE OF AL KATZ:
LAWRENCE T. NEWMAN
Petitioner,
v.
ROBERT W. YORK
as Personal Representative,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO
THE SUPREME COURT OF INDIANA
PETITION FOR A WRIT OF CERTIORARI
LAWRENCE T. NEWMAN
Pro Se
4102 66th Street Circle West
Bradenton, FL 34209
(317) 397-5258

PETITION FOR A WRIT OF CERTIORARI
Petitioner, Lawrence T. Newman, respectfully
requests that this Court issue a writ of certiorari to
review the judgments of the Indiana Court of Appeals
and of the Indiana Supreme Court approving an
award of $167,437.50 in appellate attorney fees
against Newman in the absence of Constitutional due
process afforded to Newman in all of the legal
proceedings leading up to said award and without any
findings of specific wrongdoing by Newman relative to
the bases for said award.
OPINIONS BELOW
The Order of the trial court dated October 22,
2019, awarding appellate attorney fees is set forth in
Appendix A. The Order of the Indiana Court of
Appeals dated October 7, 2020, affirming the trial
court is set forth in Appendix B. The Order of the
Indiana Court of Appeals dated December 7, 2020,
denying Newman’s Petition for Rehearing is set forth
in Appendix C. The Order of the Indiana Supreme
Court dated April 20, 2021, denying transfer is set
forth in Appendix D.
JURISDICTION
This cause arises from an award of appellate
attorney fees against Newman by the trial court,
which award was upheld by the Indiana Court of
Appeals and by the Indiana Supreme Court.
Accordingly, the jurisdiction of this Court is
invoked under 28 U.S.C § 1257(a).
1

CONSTITUTIONAL PROVISIONS INVOLVED
This case involves the following Constitutional
provisions, the pertinent portions of which are set
forth below:
Congress shall make no law ... abridging the freedom
of speech, or of the press; or the right of the people
peaceably to assemble, and to petition the
Government for a redress of grievances.
U.S. Const, amend. I.
No person shall ... be deprived of life, liberty, or
property, without due process of law ....
U.S. Const, amend. V.
.... No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person
of life, liberty, or property, without due process of
law; nor deny to any person within its jurisdiction the
equal protection of the laws.
U.S. Const, amend. XIV, Section 1.
Excessive bail shall not be required, nor excessive
fines imposed, ....
U.S. Const, amend. VIII

STATEMENT OF THE CASE
On October 22, 2019, the Marion County
(Indiana) Superior Court awarded $167,437.50 in
appellate attorney fees against Newman based upon
prior Orders of the Indiana Court of Appeals and the
2

This case presents a
Indiana Supreme Court,
singular question of the outer limits of a citizen’s
Constitutional due process and other related
Constitutional rights in legal proceedings stretching
over years and involving multiple levels of courts,
trial, appellate, and state Supreme Court, which
courts at all levels repeatedly denied said rights to the
citizen, and culminating in a punitive grosslyexcessive award of appellate attorney fees resulting
from said denials of Constitutional rights.
The events that led to the fee award are as
follows.
Petitioner Lawrence Newman ("Newman") is
the husband of Dr. Beverly Newman and the son-inlaw of Dr. Newman’s father, A1 Katz, a Holocaust
Survivor and domiciliary of Indianapolis, Indiana,
since 1947.
In July 2010, at age 90, A1 Katz passed away in
Florida, and Dr. Newman opened his Estate in the
Marion County, Indiana, Probate Court, which
appointed her as Personal Representative of the A1
Katz Estate in October 2010, and her husband,
Lawrence Newman, a licensed attorney in Indiana
and
Ohio,
represented
her
as
Personal
Representative.
The Estate was chronically short of liquid
assets from its inception because A1 Katz had been
put into an involuntary professional guardianship in
Florida in September 2009, which guardianship
consumed almost all of Katz’s liquid assets in less
than one year’s time, and Lawrence Newman, as the
3

son-in-law of A1 Katz, personally paid for many of the
ongoing administrative expenses of the Estate,
including, inter alia, expenses for the upkeep of A1
Katz’s domiciliary home at 4727 North Ritter Avenue,
Indianapolis, Indiana (“Ritter Property”), such as
utilities, insurance, maintenance, and property taxes,
expenses for the upkeep of A1 Katz’s Florida
condominium, litigation expenses for four damage
lawsuits filed by the Estate in Florida against A1
Katz’s professional guardian, his condominium
association, an attorney, and a nursing home.
At the time he paid for Estate administrative
expenses, Newman expected that the Estate would, in
the future, have sufficient funds to reimburse him for
such necessary expenses through, inter alia, the sale
of the Ritter Property and through the Florida
damage lawsuits.
In this respect, on April 27, 2013, Newman
filed a motion for reimbursement of Estate
administrative expenses in the amount of $42,284.54.
On August 28, 2013, Newman filed another
motion for reimbursement of Estate administrative
expenses in the amount of $2,054.11.
On October 9, 2013, Newman filed a further
motion for reimbursement of Estate administrative
expenses in the amount of $1,075.48.
On March 19, 2014, Newman filed his final
motion for reimbursement of Estate administrative
expenses in the amount of $5,422.68, and in the
aggregate amount of $50,836.81.
4

Newman’s
four
administrative
expense
reimbursement Motions were set for hearing on
March 19, 2014, but not heard on said date; reset for
hearing on May 2, 2014, but not heard on said date;
and the trial court adjourned said May 2, 2014,
hearing without ever resetting said hearing and
without ever holding a subsequent hearing on
Newman’s Motions, as documented by the trial
court’s CCS entry on May 5, 2014:
Administrative Event. Per jacket entry
.... L. Newman in person,
Court
adjourns without addressing 5 motions
set for 3/19/14 .... File Stamp:
05/02/2014.
In fact, the adjourned hearing was never
thereafter reset, and Newman’s four reimbursement
Motions were never heard or otherwise determined by
the trial court.
In addition to his four reimbursement Motions,
Newman subsequently filed on January 25, 2016, a
"Verified Petition for Payment of Estate Attorney
Fees" for administrative expenses in the amount of
$52,050.00, in payment for his attorney fees earned
while representing Estate Personal Representative
Dr. Beverly Newman from the opening of the Estate
through Lawrence Newman’s withdrawal on
February 3, 2012. Said Petition for administrative
expenses was never scheduled for hearing or
determined by the trial court.

5

Newman thereafter filed on May 9, 2016, a
"Notice to Court of Transfer of Interest of
Administrative Expense Claim and Motion for
Approval and Payment of Claim" relative to $1,554.20
paid by the Newmans for 2016 property taxes on the
Estate’s Ritter Property,
Said claim for
administrative expenses was similarly never heard or
determined by the trial court.
The
aggregate
amount
of Newman’s
administrative expenses in his six Motions totals
$104,441.01. None of said six Motions was ever heard
or otherwise determined by the trial court.
In January 2015, the court appointed
Indianapolis attorney Robert York as both the
successor Personal Representative and attorney for
the A1 Katz Estate. In May 2015, over Dr. Beverly
Newman’s objections, York sought and obtained trial
court authorization to dismiss with prejudice the
Estate’s four Florida damage lawsuits, which
dismissals eliminated a significant source of Estate
funds available to pay Newman’s administrative
expense Motions.
In order to effectuate the dismissals of the four
Florida lawsuits by the Indiana-sited Estate, York, an
attorney licensed in Indiana but never licensed in
Florida: (1) falsely registered with the Florida EFiling Portal as a "self-represented litigant" and
(2) personally made four separate filings in various
Florida courts on behalf of the Estate through the
Florida E-Filing Portal, each of which filings
constituted the unlicensed practice of law in Florida

6

by York, a third degree felony under Fla. Stat. §
454.23.
Although the trial court in the A1 Katz Estate
proceeding was notified multiple times by Lawrence
Newman and by Dr. Beverly Newman of York’s illegal
repeated felonious unlicensed practice of law in
Florida, the Indiana court never reported York to
appropriate authorities, sanctioned York, or took any
other actions against York.
Further, although annual accountings are
required by Indiana estate law, York has never filed a
single accounting since being appointed successor
Personal Representative in January 2015.
On July 13, 2016, upon motion for
disqualification filed by Newman alleging bias and
prejudice by the judge, trial court Judge Rosenberg
and his supervising judge both recused themselves for
cause, and the Indiana Supreme Court thereupon
appointed Judge James Joven, a legal colleague of
Robert York from the small town of Lawrence,
Indiana, as successor judge on July 20, 2016.
Although Judge Rosenberg had never heard or
determined any of Newman’s six administrative
expense Motions, and the trial court’s own written
record, through its CCS and the specific
determinations cited herein, conclusively documented
that Newman’s Motions had never been heard or
determined, Judge Joven beginning upon his
appointment and thereafter repeatedly erroneously
held that the court had previously denied or dismissed
Newman’s Motions during Judge Rosenberg’s tenure.
7

In said holdings, Judge Joven never cited to
any actual specific court Order that had actually
denied or dismissed any of Newman’s Motions,
notwithstanding:
documentation
repeated
Newman’s
(1)
submitted to Judge Joven that no such Order(s) had
ever been issued at any time by the court;
(2) Newman’s repeated requests that Judge
Joven cite the specific alleged court Orders; and
(3) that Judge Joven himself had previously
listed as unheard on his November 29, 2016, ’’Order
Setting Pretrial Conference" Newman’s Motion for
administrative expense attorney fees filed on January
25, 2016, in the amount of more than $50,000.00.
In this respect, Indiana Trial Rule 53.1(C)
provides that “a court is deemed to have set a motion
for hearing on the date the setting is noted in the
Chronological Case Summary, and to have ruled on
the date the ruling is noted in the Chronological Case
Summary.”
Judge Joven consistently refused
Newman’s multiple and repeated requests to set his
administrative expense Motions for hearing, even
though the court’s CCS conclusively established that
no hearing on said Motions had ever taken place and
that no Order determining any of said Motions had
ever been issued by any predecessor judge in the case.
From the time he assumed jurisdiction of the
A1 Katz Estate proceeding in 2016, Judge Joven
refused to even consider hearing any of Newman’s
subject Motions, leaving Newman without any relief
at the trial court level, thus denying Newman his
fundamental due process rights to access to the
8

courts, to redress of grievances, and to consideration
of his Motions on their merits at the trial court level.
Beginning in 2017, Newman began his quest to
obtain judicial relief and due process at the appellate
court level in Indiana.
In 2017, York obtained an Order from the trial
court to attempt to consummate a sale of the Ritter
Property without consideration of Newman’s six
unheard administrative expense Motions, which sale
would thus have excluded Newman from sharing in
the sale proceeds of the last asset of substantial value
held by the Estate.
Newman thereafter filed an interlocutory
Appeal, challenging the trial court’s Order which
authorized the distribution of the proceeds of the sale
of the Ritter Property without consideration of
Newman’s six administrative expense Motions that
still had never been heard or determined by the trial
court. Said interlocutory Appeal was dismissed with
prejudice by the Court of Appeals before any briefs
had been filed by Order of January 4, 2018, on the
basis that Newman had filed an untimely
interlocutory Appeal. Because no briefs had been
filed in said Appeal before it was dismissed, the
appellate court never considered or issued any
determinations on the merits of Newman’s contention
that his Constitutional due process rights had been
violated by the trial court through its refusal to hear
Newman’s six administrative expense Motions before
ordering the distribution of the proceeds from the sale
of the Ritter Property, preventing Newman from
sharing in the proceeds of said sale.
9

After said Appeal was dismissed as untimely
filed, the proposed sale of the Ritter Property did not
take place, and the issue Newman had attempted to
appeal became moot. Thereafter, in 2018, York
notified the trial court of his intent to sell the Ritter
Property to a different buyer, from which sales
proceeds York again intended to make no
distributions to Newman.
On May 31, 2018, Newman filed a Verified
Response to York’s notification of his intent to sell the
Ritter Property without any distributions to
Newman, in which Newman stated in pertinent part:
Lawrence Newman submits to this
Court that any distributions to the
United States of America and to the
State of Indiana for their respective tax
claims without payment of Lawrence
Newman’s
administrative
expense
claims will be a violation of probate law
and of Lawrence Newman’s due process
rights under the United States
Constitution
and
the
Indiana
Constitution, as well as a violation of
Lawrence Newman’s rights of access to
the courts guaranteed by the Indiana
Constitution....
As
Lawrence
Newman
further
repeatedly notified this Court and as he
does so herein, it is necessary that this
Court hear and determine Lawrence
Newman’s six (6) administrative expense
10

claims prior to any distribution of the
sale proceeds of the Ritter Property ....
Nonetheless, on June 12, 2018, the trial court
issued an Order in which the trial court set forth the
distributions to be made from the proceeds of the sale
of the Ritter Property, which Order did not mention
Newman or provide for any payment to Newman for
his administrative expense claims. Further, the trial
court took no actions to set any of Newman’s
administrative expense Motions for hearing.
Thus, at the trial court level since 2013,
Newman had filed a total of six Motions for payment
of administrative expenses seeking to be reimbursed
for personal cash advances he made to financially
support the Estate of his father-in-law and to be paid
for his legal services to the Estate, which
administrative expenses have priority under Indiana
law.
After Newman had repeatedly sought to have
said Motions heard and determined, the trial court
culminated five years of inaction on Newman’s
Motions by ordering the sale of the Estate’s Ritter Property without hearing or determining Newman’s
Motions, so that Newman could not share in the
proceeds of the last significant Estate asset.
Newman thereupon appealed said Order for
the sale of the Ritter Property to the Indiana Court of
Appeals on July 12, 2018. but the court denied
Newman’s Appeal on the basis that its Order
dismissing Newman’s prior Appeal for untimeliness,
prior to the filing of any briefs or arguments on the
11

merits, was nonetheless a judgment on the merits of
the prior Appeal and thus was res judicata as to
Newman’s subsequent subject Appeal, ruling:
With respect to Newman’s argument
that the trial court erred in
determining that his administrative
claims were dismissed or denied,
Newman cites the court’s August 4,
2017 order in which the trial court
stated that it had repeatedly denied
Newman’s claims for administrative
expenses. Newman also cites the trial
court’s August 28, 2017 order in which
the court mentioned it had previously
dismissed
his
claims.
However,
an
Newman
already
sought
interlocutory appeal of these orders
under Cause No. 2475 and the appeal
was dismissed with prejudice. “It is
generally recognized that a dismissal
with prejudice is a dismissal on the
merits.”
As such it is conclusive of
the rights of the parties and res
judicata as to the questions which
might have been litigated. Id. As we
dismissed Newman’s appeal with
prejudice, we do not disturb the trial
court’s finding that it had denied
Newman’s claims for administrative
expenses, and this issue is foreclosed
for our review.
As part of its Order of dismissal, the Court of
Appeals granted appellate attorney fees to York,
12

which amount would be ultimately determined by the
trial court. The Court of Appeals did not give any
reasons in its dismissal Order for assessing appellate
attorney fees against Newman, which lack of reasons
violated
Indiana
caselaw
precedents,
which
precedents authorized the assessment of appellate
attorney fees only in specified circumstances, none of
which circumstances were found by the Court of
Appeals to apply to Newman, as the Court failed to
state any reasons for assessment of attorney fees
against Newman. Said failure by the Court to state
its reasons violated Newman’s Constitutional due
process rights, as he was assessed attorney fees
without any finding of wrongdoing or misconduct by
Newman.
As a result of the actions of the Indiana Court
of Appeals, Newman was subject to being punitively
charged tens of thousands of dollars of appellate
attorney fees for seeking to enforce his Constitutional
due process rights to a hearing on the merits for his
administrative expense claims that had been
repeatedly denied to him at the trial court level.
Newman thereafter filed a Petition To Transfer
with the Indiana Supreme Court, seeking justice at
the ultimate state court level to enforce his
Constitutional due process rights to a hearing on the
merits of his administrative expense Motions, access
to the courts, and redress of grievances. The Indiana
Supreme Court denied transfer, thus, in essence,
approving the actions of the lower courts in denying
fundamental due process to Newman by failing to
afford him a hearing on the merits of his expense
claims and by imposing punitive appellate attorney
13

i

fees upon Newman without any findings of
wrongdoing by Newman and without finding any of
the required legal grounds necessary under Indiana
law for awarding appellate attorney fees against a
party.
As a result of the actions and inactions of the
trial court, the Indiana Court of Appeals, and the
Indiana Supreme Court decision not to consider the
issue on the merits, Newman’s six administrative
expense Motions remained unheard, undecided, and
unpaid.
In separate litigation during the same period of
time, Lawrence Newman and his wife sued A1 Katz
Estate successor Personal Representative and
attorney Robert W. York for damages in a lawsuit
filed in the Florida courts for wrongful actions taken
by York in Florida relative to his administration of
the A1 Katz Estate, including, inter alia, the repeated
unlicensed practice of law in Florida by York, who is
only licensed in Indiana, by York’s filings of four
separate documents in the Florida courts on behalf of
the Indiana-sited Estate, and York’s conspiracy with
Florida-licensed opposing counsels to effect the
dismissal of four Florida damage lawsuits filed by the
Estate prior to York’s appointment as successor
Personal Representative, pursuant to May 11, 2015,
hearing arranged by York in which multiple Floridalicensed attorneys appeared at the behest of York at
he six-hour hearing until 9:00 at night, respectively
representing their Florida clients against the interests
of the A1 Katz Estate.

14

1

York, who appeared and defended by counsel in
the Newmans’ Florida litigation against him, months
later filed for an injunction in the Indiana Estate
proceeding for the Indiana Estate court to enjoin the
Newmans from continuing their Florida lawsuit
The Indiana court granted the
against York,
injunction sought by York, and the Newmans ceased
litigating against York in their Florida lawsuit, and
Lawrence Newman brought an Appeal of the
injunction in the Indiana Court of Appeals.
Rather than hear Newman’s Appeal on its
merits, the Indiana Court of Appeals dismissed it
without stating any legal grounds for said dismissal,
and further assessed appellate attorney fees against
Newman without stating any finding of wrongdoing
by Newman or stating of the required legal grounds
for an award of appellate attorney fees in Indiana.
After the Court of Appeals denied Newman’s
Motion for Rehearing, Newman filed a Petition To
Transfer in the Indiana Supreme Court.
The
Supreme Court denied transfer without any stated
reason, and imposed further appellate attorney fees
against Newman, similarly without any finding of
wrongdoing by Newman and without stating any of
the required legal and factual findings necessary for
an award of appellate attorney fees under Indiana
law. See Ballaban v. Bloomington Jewish Cmty., Inc.,
982 N.E.2d 329 (Ind.App. 2013) and Orr v. Turco Mfg.
CoInc., 512 N.E.2d 151 (1987).
On August 7, 2019, York filed a Petition for
Determination of Appellate Attorney Fees with the
trial court, which hearing was set for September 17,
15

2019, to determine the dollar amount of attorney fees
to be imposed upon Newman in both of his Appeals.
In his Petition, York requested an award of appellate
attorney fees against Newman in the two Appeals for
453.2 hours at $375.00 per hour, totaling $169,950.00.
On September 2, 2019, Newman filed his
Verified Response to Robert W. York’s “Personal
Representative’s Verified Petition for Determination
of Appellate Attorney Fees" in the trial court,
challenging both the amounts charged by York and
York’s proffered documentation in support of his fee
request. In particular, Newman argued that, inter
alia-.
York’s requested fees were intolerably
(1)
inflated, as he requested attorney fees in excess of
$1,000.00 per page for some of his appellate filings;
(2)
York’s total amount of fees requested of
$169,950.00 far exceeded the total value of the A1
Katz Estate, which was approximately an estimated
$10,000.00 at the time York made his charges;
(3)
York charged for legal work unrelated to
the Estate of A1 Katz;
York sought an award of attorney fees of
(4)
$169,950.00, which was far in excess of the total
financial exposure of the Estate by the administrative
expenses Newman sought to be paid in his Appeals of
$104,441.01;
(5)
the Affidavit of York’s expert witness,
Karl Mulvaney, was not verified, was not based upon
personal knowledge, and was based upon facially-false
factual errors;
(6)
York never offered his Appellate Time
Records into evidence at the fee hearing, so there was
no evidence on the record to support the trial court’s
16

findings regarding York’s claimed fees; nevertheless,
the trial court falsely stated in its Judgment of
Attorney’s Fee Award that York’s Appellate Time
Records had been admitted into evidence.
Newman cited Hensley v. Eckerhart, 461 U.S.
424,434 (1983), for the maxim that "Hours that are
not properly billed to one’s client also are not properly
billed to one’s adversary." Newman thus argued that
an Indiana lawyer cannot ethically charge a client
over $65,000.00 more in appellate attorney fees than
the amount of money for which the attorney’s client
(the Estate) could have been liable had it not
defended the Appeal, and over $150,000.00 more in
appellate attorney fees than the Estate was worth.
In this respect, York’s requested appellate fees
exceeded the financial exposure of the Estate in the
subject Appeals - the administrative expenses and fees
of Lawrence Newman - by over 60% and York’s
requested fees exceeded the current value of the
Estate by well over 1,700%.
Newman did not appear at the trial court’s fee
hearing, but rested upon his Verified Response that
was submitted to the trial court under oath subject to
penalties of perjury.
On October 22, 2019, the trial court issued its
Judgment of Appellate Attorneys Fees Award,
granting $167,437.50 in appellate attorney fees to
York, which amount subtracted only 6.7 hours of
wholly-unrelated legal work from York’s requested
amount of fees.

17

Newman appeals the trial court’s award of
$167,437.50 in appellate attorney fees to York as a
gross violation of Newman’s Constitutional rights to
due process because said fee award was not only an
unconstitutional abuse of power by the trial court, it
was based upon and derived from unconstitutional
prior actions and inactions by the trial court, the
Indiana Court of Appeals, and the Indiana Supreme
Court, inter alia, denying Newman his Constitutional
rights to access to the Courts and to redress of
grievances.
REASONS FOR GRANTING THE WRIT
The award of extraordinary punitive
1.
appellate attorney fees of $167,437.50
against
Newman based upon Newman’s Constitutionallyprotected assertions of his due process rights to a
hearing
on the merits violates the Fourteenth
Amendment’s Due Process Clause and other
Constitutional provisions.
This case concerns a first impression issue of
the deprivation of due process by the impositions of
extraordinary appellate attorney fees as a punishment
because of a litigant’s repeated Constitutionallyprotected attempts at all levels of the state courts to
obtain a hearing on issues of substantial property
rights.
While this Court has considered many cases
dealing with the issue of the right to an award of
appellate attorney fees, and while this Court has also
considered many cases of due process considerations
dealing with issues of sufficiency of notice, timing of
18

hearings, and the substance of hearings, this case
presents the unique circumstance where a litigant is
assessed an extraordinary amount of appellate
($167,437.50) because of his
attorney fees
Constitutionally-protected efforts over a period of
years to obtain his likewise Constitutionally-protected
right to present his case on the merits in a hearing in
a court of law on property right claims totaling over
$100,000.00., an egregious denial of the fundamental
Constitutional rights to due process, access to the
courts, and redress of grievances enacted in the Bill of
Rights over two centuries ago.
While this Court has multiple times considered
the issue of the right to be awarded attorney fees, it
has never considered the right not to be assessed
attorney fees when such fees were assessed against a
party due to his assertion of Constitutionallyprotected rights.
Specifically, this Court has considered the issue
of the right to an award of attorney fees in numerous
cases.
See, inter alia, Alyeska Pipeline Service
Company v. The Wilderness Society, et al, 421 U.S.
240, 95 S.Ct. 1612, 44 L.Ed.2d 141 (1975); Hensley v.
Eckerhart, 461 U.S. 424, 103 S.Ct. 1933, 76 L.Ed.2d
40 (1983); Martin v. Franklin Capital Corp., 163
L.Ed.2d 547, 546 U.S. 132, 126 S. Ct. 707 (2005); and
Octane Fitness, LLC v. Icon Health, 134 S.Ct. 1749,
188 L.Ed.2d 816, 82 USLW 4330 (2014).
None of the above cases considers the issue
brought before this Court herein: whether attorney
fees can Constitutionally be assessed against a litigant
for the litigant’s assertion of his own Constitutional
19

right to a hearing on the merits of his claims,
particularly when the courts assessing the attorney
fee awards fail to articulate any of the required bases
for making such awards of fees.
As recounted above, Newman spent years
attempting to obtain a single hearing in the trial
court on his six administrative expense claims in the
Estate of A1 Katz, but the trial court initially refused
to even hold a hearing and then afterward repeatedly
falsely claimed that such a hearing had already been
held and that Newman’s subject claims had already
been denied or dismissed. The trial court’s position
was clearly wrong, both factually and legally, as the
trial court’s own CCS record established conclusively
that no such hearing had ever taken place and that
likewise, no such denials or dismissals had ever been
ordered.
In this respect, Ind. Trial Rule 77(B) provides
in pertinent part (emphasis added):
Chronological Case Summary (CCS).
For each case, the clerk of the circuit
court shall maintain a sequential
record of the judicial events in such
proceeding .... The judge of the case
shall cause CCS entries to be made of
all judicial events. Notation of judicial
events in the CCS shall be made
promptly, and shall set forth the date
of the event and briefly define any
documents,
orders,
rulings,
or
judgments filed or entered in the case

20

.... The CCS is an official record of the
trial court....
Further, Indiana law provides that: "a court is
deemed to have decided on the date the decision is
noted in the Chronological Case Summary." Ind.
Trial Rule 53.2(C).
As noted above, while trial court Judge Joven
insisted for years that Newman’s administrative
expense Motions had been previously denied or
dismissed, Newman thereupon repeatedly asked the
trial court to specify the date and content of said
purported court Orders, as such Orders did not
appear on the trial court’s CCS, but Judge Joven
never so specified.
Likewise, the Indiana Court of Appeals, in two
separate Appeals by Newman, while assessing
appellate attorney fees against Newman by adopting
the trial court’s position that Newman Motions had at
some time been denied or dismissed, likewise would
not specify any of the purported Orders or actions of
the trial court, and assessed fees without stating any
wrongdoing by Newman to justify said fee
assessments.
Lastly, the Indiana Supreme Court, while
denying Newman’s Petition To Transfer, nonetheless
assessed its own appellate attorney fees against
Newman, once again without specifying any
wrongdoing by Newman to justify said assessment of
fees, and further without comment on the issue of the
failures of the Indiana courts at both the trial court
and the appellate levels to identify any actual action,
21

Order, or hearing by the trial court that denied or
dismissed
Newman’s
subject
Motions
for
administrative expenses.
The result of these combined actions/inactions
by the Indiana courts at all three levels of the state
judiciary - trial, appellate, and Supreme Court - was
to deny Newman of his Constitutional right to a
hearing on the merits of his subject Motions for
administrative expenses totaling $104,441.01, while
penalizing Newman for his years’ long assertions of
his Constitutional right to a hearing by seeking
justice from Indiana’s appellate courts.
The right to a hearing on the merits in a court
for the redress of grievances is inviolate and stretches
back centuries in Constitutional law. Over 150 years
ago, even prior to the enactment of the Fourteenth
Amendment, in Baldwin v. Hale, 68 U.S. 223 (1 Wall.
223, 17 L.Ed. 531) (1863), this Court clearly
recognized the right of a litigant in American courts
to have his case actually heard as established in cases
dating back to 1850.
Parties whose rights are to be affected are
entitled to be heard; and in order that they may enjoy
that right they must first be notified. Common justice
requires that no man shall be condemned in his
person or property without notice and an opportunity
to make his defence. Nations et al. v. Johnson et al,
24 How., 203; Boswell's Lessee v. Otis et al., 9 How.,
350; Oakley v. Aspinwall, 4 Comst., 514.
In the present case, Newman was "condemned
in his ... property ... without notice and an
22

opportunity to make his defence" twice by the Indiana
courts - first, by the courts’ repeated denials of
Newman’s right to a hearing on his administrative
expense Motions, and second, by imposing
$167,437.50 in appellate attorney fees against
Newman without notice of any legal grounds for
imposing said penalties against Newman for his acts
of seeking justice though his legal right to appeal in
Indiana’s appellate courts.
In these respects, the Indiana Constitution
guarantees Newman the “absolute right to one
appeal.” Ind. Const, art. VII, §6, but Newman’s rights
to appeal were denied to him because: (1) the
appellate courts refused to confront on the merits the
trial court’s documented failure to provide Newman
with his Constitutionally-protected right to a hearing
on the merits; and (2) the Indiana appellate courts
punished Newman for asserting his appellate rights
by imposing without stated legal cause extraordinary
appellate attorney fees.
“[S]ome form of hearing is required before an
individual is finally deprived of a property [or liberty]
interest,” Mathews v. Eldridge, 424 U.S. 319,333
(1976), but no hearing was required for Newman
before he was deprived of his administrative expense
claims.
"Both liberty and property are specifically
protected by the Fourteenth Amendment against any
state deprivation which does not meet the standards
of due process
Giaccio v. State of Pennsylvania,
382 U.S. 399 (1966).

23

In this case, the Indiana courts twice did not
"meet the standards of due process" in their
imposition of $167,437.50 in attorney fees against
Newman, in their failure to give Newman a hearing
and in their imposition of fees upon Newman without
any stated legal cause.
Said imposition of fees
without stated legal cause further impacted
Newman’s due process rights because he was
hamstrung in opposing said fee assessments because
he never knew the reason why he was being punished
with the massive penalty of $167,437.50 in appellate
attorney fees.
"[F] airness can rarely be obtained by secret,
one-sided determination of facts decisive of rights,"
Joint Anti-Fascist Committee v. McGrath, 341 U.S.
123,170 (1951), but Newman was assessed over
$165,000.00 in appellate attorney fees by multiple
Indiana appellate courts without once being notified
by said courts of the legal reasons why he was being
penalized.
The deprivation of property interests without
due process, and the requirement for an actual
hearing and decision on the merits of a controversy
are cornerstones of this Court’s principles and
practice, and this Court has explicated the various
requirements of due process of law in a myriad of
cases over decades of decisionmaking.
Due process has been interpreted by this Court
as preventing the states from denying litigants use of
established adjudicatory procedures, when such an
action would be “the equivalent of denying them an

24

opportunity to be heard upon their claimed right[s].”
Boddie v. Connecticut, 401 U.S. 371,380 (1971).
The essence of due process is the requirement
that "a person in jeopardy of serious loss [be given]
notice of the case against him and opportunity to
meet it." Joint Anti-Fascist Committee v. McGrath,
341 U.S. 123,171 (1951) (Frankfurter, J., concurring).
In Marshall v. Jerrico, 446 U.S. 238 (1980), this
Court held:
The Due Process Clause entitles a
person
to
an
impartial
and
disinterested tribunal in both civil and
criminal cases. This requirement of
neutrality in adjudicative proceedings
safeguards the two central concerns of
procedural due process, the prevention
of unjustified or mistaken deprivations
and the promotion of participation and
dialogue by affected individuals in the
decisionmaking process. See Carey v.
Piphus, 435 U.S. 247, 259-262, 266-267
(1978)....
We have employed the same principle in
a variety of settings, demonstrating the
powerful and independent constitutional
interest in fair adjudicative procedure.
Indeed, "justice must satisfy the
appearance of justice," Offutt v. United
States, 348 U.S. 11,14, (1954) ....

25

At all judicial levels, the State of Indiana has
demonstrated that certain persons are not entitled "to
an impartial and disinterested tribunal ... [a]
requirement of neutrality ... the prevention of
unjustified or mistaken deprivation." In the instant
case, Newman is a publicly-known adversary of child
predators and their enablers, for which actions Robert
W. York fired Newman prior to York’s appointments
as Estate attorney and Personal Representative. It
was Newman and his wife who first publicly exposed
the serious child abuse occurring at the Indianapolis
Jewish Community Center, where numerous
convicted predators frequented, including Jared
Fogle, having preyed upon children globally as the
spokesman for Subway restaurants. Thus, Newman
has been targeted for years by the Indiana courts
where Robert W. York is well-known.
“It is a violation of due process for a state to
enforce a judgment against a party to a proceeding
without having given him an opportunity to be heard
sometime before final judgment is entered. Postal
Telegraph Cable Co. v. Newport; 247 U.S. 464,476
(1918).
In the Indiana courts, for Newman, who
publicly exposed child abuse at an influential site, the
state has proven that it will "enforce a judgment
against a party to a proceeding without having given
him an opportunity to be heard ...." and punitively
deprive him of hundreds of thousands of dollars
without access to the courts or opportunity to redress
grievances.

26

Indeed, the failures of the trial court, the
Indiana Court of Appeals, and of the Indiana Supreme
Court to afford Newman the most rudimentary
aspects of due process are direct affronts to the basic
characteristics of due process long established by this
Court. The trial court refused to allow Newman to
have a hearing on a single one of his six
The Court of
administrative expense Motions.
Appeals compounded the state’s deprivation of
Newman’s due process rights by denying Newman the
opportunity for an appeal on the merits, The Indiana
Supreme Court further compounded the deprivations
of Newman’s due process by refusing transfer, thus in
essence confirming the lower courts’ deprivations of
Newman’s Constitutional due process rights, but
nonetheless imposing additional appellate attorney
fees against Newman..
Due process rights are considered as so
fundamental that they are guaranteed in multiple
clauses in the United States Constitution.
See
Christopher v. Harbury, 536 U.S. 403,415 n.12 (2002)
(holding the right to be “grounded in the Article IV
Privileges and Immunities Clause, the First
Amendment Petition Clause, the First Amendment
Petition Clause, the Fifth Amendment Due Process
Clause, and the Fourteenth Amendment Equal
Protection and Due Process Clauses.”). See also id. at
415 (access to the courts is a “fundamental right”
that is a “separate and distinct right to seek judicial
relief for some wrong.”).
“[T]he Due Process Clauses protect civil
litigants who seek recourse in the courts, either as
defendants hoping to protect their property or as
27

plaintiffs attempting to redress grievances.” Logan v.
Zimmerman Brush Co., 455 U.S. 422,429 (1982).
Due process rights are the type
“fundamental rights” that are both “deeply rooted
this Nation’s history and tradition” and “implicit
the concept of ordered liberty.”
Washington
Glucksberg 521 U.S. 702,720-21 (1997).

of
in
in
v.

Ultimately, on the foundation of the multiple
deprivations of Constitutional due process owed to
Newman by the Indiana trial court, Court of Appeals,
and Supreme Court, in denying Newman his right to
a hearing on the merits of his administrative expense
Motions and by the repeated impositions of appellate
attorney fees awards without any findings of
wrongdoing by Newman and without any of the
necessary findings to support said fee awards, the
trial court thereafter charged appellate attorney fees
against Newman in the exorbitant total amount
claimed by York of $167,437.50.
Because the
assessment of attorney fees against Newman by the
trial court were based upon violations of his
Constitutional due process rights as a punishment for
Newman’s attempts at three levels of Indiana’s courts
to exercise his Constitutional rights to a hearing on
the merits of his claims, the award of attorney fees of
$167,437.50, far in excess of the worth of the Estate,
was in itself an additional violation of Newman’s
Constitutional due process rights.
“For while an individual certainly may be
penalized for violating the law, he just as certainly
may not be punished for exercising a protected

28

statutory or constitutional right.”
Goodwin, 357 U.S. 368,372 (1982).

United States v.

This Court has stated that “some errors are so
fundamental and pervasive that they require reversal
without regard to the facts and circumstances of the
case.” Young v. U.S. ex rel. Vuitton, 481 U.S. 787,810
(1987). An error is fundamental if it undermines
confidence in the proceeding. Id., at 812-813.
Due to the pervasive and fundamental errors
committed in violation of Newman’s Constitutional
due process rights by all three levels of Indiana state
courts in denying Newman of his right to a hearing on
the merits, of denying Newman appeals on the merits,
and of imposing an extraordinary punitive penalty of
$167,437.50 against Newman without any findings of
wrongdoing and in the absence of any stated legal
justification for such a penalty imposed upon
Newman because he exercised his Constitutional right
to a obtain a hearing on the merits, this Court should
grant Newman’s Writ of Certiorari and reverse the
judgment of attorney fee award by the Indiana courts.
It is small wonder that for decades, crimes
against children were covered up by sports
organizations headquartered nearby the three levels
of courts sited in Indianapolis, crimes so widespread
and severe involving thousands of children that made
headlines worldwide, crimes covered up by codes of
silence imposed by Indianapolis leaders.

29

The imposition by the trial court of
$167,437.50 in appellate attorney fees against
Newman upon assessments by the Indiana Court of
Appeals and the Indiana Supreme Court, without any
necessary findings of wrongdoing by Newman to
justify said imposition of appellate attorney fees
violates the Eighth Amendment’s Excessive Fines
Clause, the Fourteenth Amendment’s Privileges and
Immunities Clause, and the Fourteenth Amendment’s
Due Process Clause and other Constitutional
provisions.
2.

The trial Court’s imposition upon Newman of
an appellate attorney fee judgment of $167,437.50
violates the Eighth Amendment’s Excessive Fines
clause and the excessive fines clause in the Indiana
Constitution.
Excessive bail shall not be required, nor
excessive fines imposed,....
U.S. Const, amend. VIII
“The phrase ‘nor excessive fines imposed’
limits the government’s power to extract payments,
whether in cash or in kind, as punishment for some
offense.” United States v. Bajakajian, 524 U.S.
321,327-328 (1998). The Fourteenth Amendment
incorporates this protection against the states. Timbs
(2019).
v. Indiana, 586 U.S.
Likewise, the trial court’s Judgment violates
the Indiana Constitution, which provides:
Excessive fines shall not be imposed.
Ind. Const, art I, §16.
30

Indiana’s Supreme Court has held that the
Indiana Constitution should be interpreted to impose
the same restrictions as the Eighth Amendment.
Norris v. State, 394 N. E. 2d 144,150 (1979).
“The protection against excessive fines has
been a constant shield throughout Anglo-American
history:
Exorbitant
tolls
undermine
other
constitutional liberties .... Protection against
excessive punitive economic sanctions secured by the
Clause is, to repeat, both ‘fundamental to our scheme
of ordered liberty’ and ‘deeply rooted in this Nation’s
history and tradition.’” Timbs v. Indiana, 586 U.S.
(2019).
For all of the reasons stated hereinabove,
which are fully incorporated herein, the trial court’s
Judgment imposing a $167,437.50 fee award was an
“excessive fine” against Newman and violated
Newman’s federal and state Constitutional rights
against excessive fines.
In addition to violating Newman’s federal and
state Constitutional rights against excessive fines, the
trial court’s Judgment imposing a $167,437.50 fee
award violated Newman’s Constitutional rights under
the Privileges or Immunities Clause of the Fourteenth
Amendment.
...No State shall make or enforce any law
which shall abridge the privileges or
immunities of citizens of the United States
U.S. Const, amend. XIV, §1
31

“I would hold that the right to be free from
excessive fines is one of the ‘privileges or
immunities The Constitution of Indiana
provides that: ... "All courts shall be open; and
every man, for injury done to him in his person,
property, or reputation, shall have remedy by
due course of law. Justice shall be administered
freely, and without purchase; completely, and
without denial; speedily, and without delay"
(Article 1, § 12); .... These provisions of the
Constitution are a part of the fundamental law
of the state, declared by the people themselves
acting in their sovereign capacity. Ellingham v.
Dye (1913), 178 Ind. 336, 99 N.E. 1, Ann. Cas.
1915C 200. As such they are entitled to strict
construction.
Lafayette,
Muncie,
and
Bloomington R.R. Co. and Another v. Geiger
(1870), 34 Ind. 185. It has been said that the
language of each provision of the Constitution
is to be considered as though every word had
been hammered into place. State ex rel. Hovey
v. Noble {1888), 118 Ind. 350, 353, 21 N.E. 244.
Uniformity in the interpretation and
application of the law is the keystone of our
system of jurisprudence.... Id., 217 Ind. 93 at
107-112, 26 N.E.2d 399 (Ind. 1940).
When the Fourteenth Amendment was ratified,
“the terms ‘privileges’ and ‘immunities’ had an
established meaning as synonyms for ‘rights.’” Those
“rights” were the “inalienable rights” of citizens that
had been “long recognized,” and “the ratifying public
understood the Privileges or Immunities Clause to
protect constitutionally enumerated rights” against
32

interference by the States. Timbs v. Indiana, 586
(2019), J. Thomas, concurring, citing
U.S.
McDonaldv. Chicago, 561 U. S. 742 (2010).
The prohibition on excessive fines is a right
that “operates, as a qualification upon powers,
actually granted by the people to the government”;
without such a “re-strictrionl.” the government’s
“oxftrcise or abuse” of its power could be “dangerous
to the people.” 3 J. Story, Commentaries on the
Constitution of the United States §1858, pp. 718-719
(1833).
The attention given to abusive fines at the time
of the Fourteenth Amendment, along with the
ubiquity
of state
excessive-fines
provisions,
demonstrate that the public continued to understand
the prohibition on excessive fines to be a fundamental
right of American citizenship. Timbs v. Indiana, 586
(2019), J. Thomas, concurring.
U.S.
Because Newman’s right to be free from
“excessive fines” is a fundamental right under the U.S.
Constitution and is one of the “privileges or
immunities” guaranteed to Newman by the Fourteenth
Amendment, for all of the reasons stated herein above,
which are fully incorporated herein, the trial court’s
Judgment violated Newman’s Constitutional rights
under the Fourteenth Amendment’s “Privileges or
Immunities Clause.”
The trial court further deprived Newman of his
Constitutional rights by imposing $167,437.50 in
appellate attorney fees without any stated legal
justification by the appellate courts that had awarded
33

the penalty because Newman had asserted his both
his federal and state Constitutional rights to a
hearing and his Indiana state Constitutional right to
a substantive appeal on the merits.
The Indiana Constitution guarantees Newman
the “absolute right to one appeal.” Ind. Const, art.
VII, §6.
Our courts are the bulwark, the final authority
which guarantees to every individual his right to
breathe free, to prosper and be secure within the
framework of a constitutional government. State ex
rel. Fifer, 234 Ind. at 181-82, 125 N.E.2d at 714
Noble County Council v. State ex rel. Fifer, 234_Ind.
172, 180, 125_N.E.2d_709, 713 (1955).
N otwithstanding
Newman’s
state
Constitutional "absolute" right to an appeal and his
right to "prosper and be secure within the framework
of a constitutional government," the Indiana Court of
Appeals dismissed Newman’s first subject Appeal
without any stated legal justification for said
dismissal and denied Newman’s second Appeal based
upon a previous untimely interlocutory Appeal by
Newman on a separate legal issue that had been
dismissed "with prejudice," even though the only basis
for said dismissal was its untimeliness as an
interlocutory Appeal, even though the parties had
never filed briefs or submitted arguments on the
merits, and even though the Court of Appeals never
made a decision on the merits of the aborted Appeal.
In construing the Indiana Constitution, we
look to "the language of the text in the context of the
34

history surrounding its drafting and ratification, the
purpose and structure of our constitution, and case
law interpreting the specific provisions." .... The "first
line of inquiry in any constitutional case" is the text of
the constitution itself. State v. Monfort, 723 N.E.2d
407,409-10 (Ind. 2000).
By dismissing Newman’s prior time-barred
interlocutory Appeal “with prejudice,” the Court of
Appeals violated Newman’s Constitutional “absolute
right to one appeal” under the Indiana Constitution
and Newman’s due process rights under the Indiana
and federal Constitutions.
Under Indiana law, even though Newman’s
prior Appeal may have been filed too late to perfect an
interlocutory Appeal, Newman still retained the right
to file an Appeal at the conclusion of the case on the
same legal issue; thus, the Court of Appeals’ dismissal
of the time-barred interlocutory Appeal "with
prejudice" was not only in error, it served to deny
Newman his due process rights. See Kindred v.
Townsend, 4 N.E.3d 793 (Ind.Ct.App. 2014), in which
the court held:
...our supreme court has held that “[a]
claimed error in an interlocutory order is
not waived for failure to take an
interlocutory appeal but may be raised
on appeal from the final judgment.”
Bojrab v. Bojrab, 810 N.E.2d 1008, 1014
(Ind. 2004) (citing Georgos v. Jackson,
790 N.E.2d 448, 452 (Ind. 2003)). Thus,
the Kindreds may attack the trial court’s
interlocutory orders on appeal from the
35

final judgment. See id. But we hold that
they have forfeited their right to an
interlocutory appeal by failing to timely
appeal the trial court’s entry of the
preliminary injunction.
The Court of Appeals’ Order dismissing
Newman’s untimely interlocutory Appeal with
prejudice, which decision the Court of Appeals
referenced as the res judicata basis for denying
Newman an Appeal on its merits in his second
Appeal, unconstitutionally denied Newman his
inviolate right to an Appeal as guaranteed by the
Indiana Constitution. In its Order in Warren v.
Indiana Telephone Co., 217 Ind. 93, 26 N.E.2d
399 (Ind. 1940), the Indiana Supreme Court
recognized:
In Newman’s case, "All courts shall be open;
and every man, for injury done to him in his person,
property, or reputation, shall have remedy by due
course of law" does not apply; for Newman has
publicly sought to prevent injury done to children, for
which he has been glaringly denied "remedy by due
Indiana stands as a bastion of
course of law."
protection for child predators and deprivations of
child advocates.
In sum, the Indiana Court of Appeals twice
denied Newman his state Constitutional right to an
appeal on their merits concerning the Indiana courts’
prior denials of his Constitutional due process rights
to a hearing on the merits of his administrative
expense claims, and then severely punished Newman
with multiple fines of appellate attorney fees
36

ostensibly because he had sought to enforce his
Constitutional rights to a hearing and to substantive
Appeals.
“For while an individual certainly may be
penalized for violating the law, he just as certainly
may not be punished for exercising a protected
statutory or constitutional right.” United States v.
Goodwin, 357 U.S. 368,372 (1982).
The trial court’s penal award of $167,437.50 in
attorney fees against Newman was intended to and
caused him to be "punished for exercising a protected
constitutional right,” which punishment was in
itself a violation of Newman’s Constitutional rights to
be free from such governmental oppression.
The trial court’s $167,437.50 appellate fee
award against Newman was clearly punitive on
several bases. First, said amount is an extraordinary
sum for a single attorney to charge for two Appeals,
averaging to over $80,000.00 in appellate fees per
Appeal, when the appellate attorney was also the trial
attorney, and therefore was fully informed about the
case below in preparing the Appeals.
Second, York’s requested fees were intolerably
inflated, as he requested attorney fees in excess of
$1,000.00 per page for many of his appellate filings.
Third, the $167,437.50 in fees awarded to York
far exceeded the total value of the A1 Katz Estate,
which was an estimated $10,000.00 at the time York
made his charges.

37

Fourth, the $167,437.50 in attorney fees
awarded was far in excess of the $104,441.01 sought
by Newman in his Appeals.
Fifth, York never offered his Appellate Time
Records into evidence at the fee hearing, so there was
no evidence on the record to support the trial court’s
findings regarding York’s claimed fees; nevertheless,
the trial court falsely stated in its Judgment of
Attorney’s Fee Award that York’s Appellate Time
Records had been admitted
into evidence and
awarded $167,437.50 in fees completely unsupported
by evidence.
Importantly, since January 2015, six-and-a-half
years ago, York has never filed an Estate accounting,
and Judge James Joven has denied Newman’s request
for same.
The problem of disproportionate awards of
attorney fees dates back nearly two centuries, as
exemplified in the Remarks of Senator Bradbury;
Cong.Globe App., 32d Cong., 2d Sess., 207 (1853)
(emphasis added):
It is not only the officers of the courts, but
the suitors also, that are affected by the
present unequal, extravagant, and often
oppressive system. ’The abuses that have
grown up in the taxation of attorneys’ fees
which the losing party has been compelled to
pay in civil suits, have been a matter of
serious complaint .... in some cases those
costs have been swelled to an amount
exceedingly oppressive to suitors, and
38

altogether disproportionate to the magnitude
and importance of the causes in which they
are taxed, or the labor bestowed.
In the 21st century, the problem of assessment
of attorney fees in the absence of findings has recently
been recognized by the U.S. Supreme Court
(emphasis added):
Hence, a plaintiff should not be
assessed his opponent’s attorney’s fees
unless a court finds that his claim was
frivolous, unreasonable, or groundless.
or that the plaintiff continued to
litigate after it clearly became so.
Martin v. Franklin Capital Corp546
U.S. 132 (2005).
In Newman’s case, no appellate court assessing
attorney fees ever found that Newman’s subject
Appeals were “frivolous, unreasonable, or groundless”
or brought “in bad faith” as grounds for imposing said
sanction, thus clearly violating Newman’s due process
rights.
The refusal to supply readily available
evidentiary support for a conclusion strongly suggests
that the conclusion is, well, unsupported. See, e.g.,
Interstate Circuit, Inc. v. United States, 306 U. S.
208, 226 (1939) Biesteck v. Berryhill, 587 U. S.____
(2019), Justice Gorsuch, dissenting.
This Court ruled in Hensley v. Eckerhart, 461
U.S. 424,433 (1976):

39

Although the trial court must
ultimately calculate the amount of
reasonable
attorney’s
fees.
the
prevailing party has the burden of
proving that the amount requested is
reasonable.
By any legitimate standard, the $167,437.50
assessed against Newman, far in excess of the amount
of expenses sought by Newman, far in excess of the
value of the Estate, billed at a rate of $1,000.00 per
page, and unsupported by admissible evidence, was
not "reasonable."
For a frank appraisal summing up the types of
unsupported determinations against Newman in the
proceedings in all levels of the Indiana courts
culminating the fee award of $167,437.50, all of which
determinations violated Newman’s due process rights
as discussed herein, see Zelman v. Zelman, 175 So.3d
871 (Fla.Dist.Ct.App. 2015): "We note that the
judgment here was infected
containing findings so unsupported by the record as
to be clearly erroneous."

CONCLUSION
In this case of first impression and in the
interest of the public good, the Petition for Writ of
Certiorari should be granted to correct the
"fundamental and pervasive" errors of the Indiana
trial court, the Indiana Court of Appeals, and the
Indiana Supreme Court, all of whose factually and
legally-unsupported decisions against Newman
40

culminated in the trial court’s imposition of the
punitive award of $167,437.50 in attorney fees against
Newman, all of which decisions so substantially
violated Newman’s Constitutional due process rights
as to compel the complete reversal of the attorney fee
award.

Respectfully submitted,
Lawrence T. Newman, Pro Se
4102 66th Street Circle West
Bradenton, FL 34209
(317) 397-5258

41

